<html>
<title> - THE STATUS OF THE BUREAU OF LAND MANAGEMENT AND FOREST SERVICE'S EFFORTS TO IMPLEMENT AMENDMENTS TO LAND USE PLANS AND SPECIFIC MANAGEMENT PLANS REGARDING SAGE GROUSE CONSERVATION, AND THOSE AGENCIES' COORDINATION ACTIVITIES WITH AFFECTED STATES</title>
<body><pre>[Senate Hearing 114-504]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-504

   THE STATUS OF THE BUREAU OF LAND MANAGEMENT AND FOREST SERVICE'S 
    EFFORTS TO IMPLEMENT AMENDMENTS TO LAND USE PLANS AND SPECIFIC 
    MANAGEMENT PLANS REGARDING SAGE GROUSE CONSERVATION, AND THOSE 
         AGENCIES' COORDINATION ACTIVITIES WITH AFFECTED STATES

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON 
                   PUBLIC LANDS, FORESTS, AND MINING

                                 of the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JUNE 28, 2016
                              __________


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                       Printed for the use of the
               Committee on Energy and Natural Resources


        Available via the World Wide Web: http://www.govinfo.gov
        
        
                                   
                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-994                         WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
       
        
        
        
        
        
        
        
        
        
        
        
        
        
        
        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES


                    LISA MURKOWSKI, Alaska, Chairman
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                AL FRANKEN, Minnesota
BILL CASSIDY, Louisiana              JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
ROB PORTMAN, Ohio                    MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
LAMAR ALEXANDER, Tennessee           ELIZABETH WARREN, Massachusetts
SHELLEY MOORE CAPITO, West Virginia

           Subcommittee on Public Lands, Forests, and Mining

                        JOHN BARRASSO, Chairman
SHELLEY MOORE CAPITO                 RON WYDEN
JAMES E. RISCH                       DEBBIE STABENOW
MIKE LEE                             AL FRANKEN
STEVE DAINES                         JOE MANCHIN III
BILL CASSIDY                         MARTIN HEINRICH
CORY GARDNER                         MAZIE K. HIRONO
JOHN HOEVEN                          ELIZABETH WARREN
JEFF FLAKE
LAMAR ALEXANDER
                      Colin Hayes, Staff Director
                Patrick J. McCormick III, Chief Counsel
   Chris Kearney, Budget Analyst and Senior Professional Staff Member
           Angela Becker-Dippmann, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
           Spencer Gray, Democratic Professional Staff Member























                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENT

                                                                   Page
Barrasso, Hon. John, Subcommittee Chairman and a U.S. Senator 
  from Wyoming...................................................     1
Wyden, Hon. Ron, Subcommittee Ranking Member and a U.S. Senator 
  from Oregon....................................................     3
Risch, Hon. James E., a U.S. Senator from Idaho..................     4
Lee, Hon. Mike, a U.S. Senator from Utah.........................     6

                               WITNESSES

Lyons, Jim, Deputy Assistant Secretary, Land and Minerals 
  Management, U.S. Department of the Interior....................     7
Harper, Robert, Director, Water, Fish, Wildlife, Air & Rare 
  Plants, U.S. Forest Service, National Forest System, U.S. 
  Department of Agriculture......................................    20
Clarke, Kathleen, Director, Public Lands Policy Coordinating 
  Office, State of Utah..........................................    29
Macdonald, Catherine, Oregon Director of Conservation Programs, 
  The Nature Conservancy.........................................    35
Richards, Brenda, President, Public Lands Council, and Rancher, 
  Owyhee County, Idaho...........................................    42
Sweeney, Katie, Senior Vice President & General Counsel, National 
  Mining Association.............................................    50

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Barrasso, Hon. John:
    Opening Statement............................................     1
Clarke, Kathleen:
    Opening Statement............................................    29
    Written Testimony............................................    31
    Response to Question for the Record..........................   221
Harper, Robert:
    Opening Statement............................................    20
    Written Testimony............................................    22
    Responses to Questions for the Record........................   214
Lee, Hon. Mike:
    Opening Statement............................................     6
Lyons, Jim:
    Opening Statement............................................     7
    Written Testimony............................................    10
    Responses to Questions for the Record........................    88
Macdonald, Catherine:
    Opening Statement............................................    35
    Written Testimony............................................    37
    Responses to Questions for the Record........................   222
Richards, Brenda:
    Opening Statement............................................    42
    Written Testimony............................................    45
Risch, Hon. James E.:
    Opening Statement............................................     4
Sweeney, Katie:
    Opening Statement............................................    50
    Maps of Proposed Land Withdrawals for Montana, Nevada, 
      Oregon, Utah and Wyoming...................................    51
    Written Testimony............................................    58
    Response to Question for the Record..........................   228
Theodore Roosevelt Conservation Partnership:
    Statement for the Record.....................................   229
Wyden, Hon. Ron:
    Opening Statement............................................     3

 
   THE STATUS OF THE BUREAU OF LAND MANAGEMENT AND FOREST SERVICE'S 
    EFFORTS TO IMPLEMENT AMENDMENTS TO LAND USE PLANS AND SPECIFIC 
    MANAGEMENT PLANS REGARDING SAGE GROUSE CONSERVATION, AND THOSE 
         AGENCIES' COORDINATION ACTIVITIES WITH AFFECTED STATES

                              ----------                              


                         TUESDAY, JUNE 28, 2016

                               U.S. Senate,
 Subcommittee on Public Lands, Forests, and Mining,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:36 p.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. John 
Barrasso, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. The Subcommittee will come to order. 
Thank you all for being here to testify. We appreciate you 
being here.
    The purpose of today's hearing is to conduct oversight on 
the status of implementation of the Federal Sage Grouse 
Conservation and Management Plans under the jurisdiction of the 
Bureau of Land Management (BLM) and the Forest Service. This 
hearing is not designed to focus solely on the quality, timing 
or scope of the Administration's top/down approach to 
conservation plans, but today's oversight of the plan 
implementation does require recognition that the overlay of 
federal plans last September effectively pushed aside years of 
successful work by state and by private conservation in terms 
of their efforts.
    As part of their joint announcement last September, the 
Fish and Wildlife Service, the BLM and the Forest Service used 
the creation of federal management plans as justification for 
the decision not to list the Greater Sage Grouse as endangered 
under the Endangered Species Act. This was despite the fact 
that the federal sage grouse plans had not yet been tested on 
the ground, let alone, finalized.
    Today marks 280 days since that joint announcement. Since 
that time, no instructional memoranda has been finalized. No 
final field guides have been made public, and agency staff on 
the ground are no closer to implementing the federal plans than 
they were last September.
    In March, when instructional memoranda drafts were leaked 
following a meeting with the Western Governors' staffs, there 
was widespread concern that the documents would include 
inconsistent or unreasonable habitat targets that would not 
reflect on-the-ground range realities. These criticisms have 
plagued the federal plans from the beginning, in large part, 
because the federal plans, in many cases, failed to use 
successful state efforts as a road map for the federal plans.
    Now, nine months after the Administration announced their 
sage grouse plans, implementation of the federal plans has not 
yet begun. Undoubtedly, the Administration witnesses will say 
that agencies are making progress by beginning habitat 
inventories to prepare for implementation.
    In some states, like Wyoming, agency personnel have begun 
training to begin these habitat assessments this summer, but 
BLM and Forest Service personnel will be assessing sage grouse 
habitat conditions without instructional memoranda to inform 
them.
    To me it seems that these inventories are simply a way to 
demonstrate false progress in implementation. I expect that 
some of the witnesses today will say the federal plans 
themselves contain flaws. This is something we have heard time 
and time again since the plans were finalized last fall. I also 
expect to hear that in some states the Administration failed to 
meet their own planning requirements like the use of best 
available science, and I expect to hear concerns about the 
landscape scale approach that the federal agencies took when 
developing their plans. I share all of these same concerns.
    In this Subcommittee last week, we heard all of these 
things about the BLM's overhaul of their planning rule, called 
Planning 2.0. It seems that whether we are talking about the 
BLM's planning process or sage grouse conservation across these 
11 Western states, there is significant opposition on the 
ground to federal action that advocates broad, sweeping policy 
direction mandated by Washington. These one-size-fits-all 
policies cripple public access to public lands and 
disenfranchise those who have a vested interest in healthy 
resources.
    Future instructional memoranda will undoubtedly mention 
grazing, mineral extraction, oil and natural gas production and 
other public land uses. A CRS report from last Tuesday 
indicated that oil and natural gas production on federal lands 
is down 27 percent from 2010. I am concerned the BLM and the 
Forest Service plans will further reduce natural gas production 
on federal lands in Wyoming and other Western states.
    In Wyoming and many of my colleagues' home states, their 
ranchers, their energy and mineral producers and their 
construction workers depend on production based on federal 
lands. In turn, the greater sage grouse depends on the people 
who depend on the land. For months, folks across the West have 
been using the phrase, ``What's good for the bird, is good for 
the herd.'' The message is simple but clear.
    Maintaining healthy habitat is good for wildlife, for 
recreationalists, for livestock and other land users, as well 
as sage grouse. The use of best science that reflects true 
habitat needs is critical to ensure the plans can be 
implemented at a scale which benefits the bird and the 
ecosystem.
    At this point I think it is clear that I have significant 
concerns about the lengthy delays in the instructional 
memoranda and the way agencies have addressed public outreach 
since last September.
    I look forward to hearing from our witnesses today about 
their discussions during the last several months and the 
expected steps forward.
    Senator Wyden.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Chairman Barrasso, thank you, and I want to 
say to you and to all our guests, the Finance Committee and the 
Intelligence Committee are two other Committees where I also 
have to be within the next 15 minutes. So I am going to be back 
and forth some, and I don't want any of you to walk away with a 
sense that somehow this is not of enormous importance because 
it is.
    Oregonians, like those from Wyoming, are no strangers to 
the profound local changes that can come from listing an animal 
under the Endangered Species Act. So it should be no surprise 
that the possibility the greater sage grouse would be listed as 
a threatened or endangered species is important in Oregon and 
the fact is, it's important to lots of people across the West.
    I recently had town hall meetings, for example, in Eastern 
Oregon. That is sage grouse country. There is a lot of work 
being done to implement sage grouse restoration plans. People 
asked me about it at the town meetings. Because of all this 
work, the U.S. Fish and Wildlife Service decided against 
listing the greater sage grouse. In my view, the decision not 
to list was a victory for all Westerners.
    The Bureau of Land Management, the Forest Service's updated 
land use plans build off the local collaboration that I heard 
discussed just a few days ago in Eastern Oregon, were, in my 
view, critical factors in the decision to not list the bird.
    Put simply, local folks got together to protect habitat to 
avoid a sage grouse listing. While no land use plan is perfect, 
I told everybody at those town meetings in Eastern Oregon that 
I'm certainly open to ideas and suggestions to plans to provide 
a road map for conservation, a way forward for ranchers and 
some real certainty for rural communities that rely on multiple 
uses of public lands.
    In my view what the decision not to list the sage grouse 
was all about was, sort of, a referendum on the proposition 
that working together, collaborating, actually pays off. Coming 
up with locally-based solutions that serve the interests of 
everybody involved is government the way, people tell me at 
town hall meetings, it's the way government is supposed to 
work.
    That is why, I believe, it's very troubling to see that 
some of our colleagues in the other body, in the House, somehow 
think it makes sense to seize defeat from the jaws of victory. 
This year, the House of Representatives in their defense 
authorization bill contains a sage grouse poison pill that 
would snuff out the years of collaboration that went into 
avoiding an endangered species listing in the first place.
    In addition to handing control of public lands over to the 
states, weakening the protections for the sage grouse, the 
decision prevents the Fish and Wildlife Service from revisiting 
its listing decision for at least ten years which are only 
going to increase the odds of an endangered species listing in 
the long term. This, in my view, is a frustrating and 
exasperating example of Congress making important endangered 
species decisions based on politics rather than science and 
collaboration.
    The Bureau of Land Management and the Forest Service have 
worked together and with local stakeholders to create plans 
that are critical for ensuring continued multiple use of public 
lands throughout the West. That is almost an obligatory 
statement I make at a town hall meeting in rural Oregon is we 
ought to be building on the notion of multiple use of public 
lands in our part of the country, and that's what's being done 
here.
    The collective efforts of local stakeholders protect sage 
grouse and habitat and ecosystems that are all so key to 
benefitting local, usually agricultural, economies and 
continuing multiple range land uses that almost always involve 
grazing and recreation.
    So I thank the panel for their input. I look forward to 
working with my colleagues on this in a bipartisan manner. This 
Committee, colleagues, particularly for some of our newer 
members, has such a long, long history of working in a 
bipartisan way. This is where we wrote the Secure Rural Schools 
bill, for example. So we have a long history of working 
together in a bipartisan way to ensure the continued health and 
prosperity of our nation's public lands.
    I especially want to thank Ms. Macdonald, with The Nature 
Conservancy, for making the trek. I apologize for the bad 
manners of coming in and out, but you've been on the ground, as 
I understand it, working on sage grouse issues in Harney 
County.
    A lot of people in this room have probably heard of Harney 
County now as a result of the last few months. You are doing 
work to bring people together in Harney County to collaborate, 
to show that it's possible to find common ground, and I am 
going to do everything I possibly can to make sure that your 
hard work doesn't go by the boards.
    Thank you, Mr. Chairman.
    Senator Barrasso. Thank you very much, Senator Wyden.
    A number of members are equally pressed with time and 
multiple commitments, so I am going to give each member a 
chance to do any introductions of the guests who are here to 
testify or make a brief opening statement.
    Senator Risch.

               STATEMENT OF HON. JAMES E. RISCH, 
                    U.S. SENATOR FROM IDAHO

    Senator Risch. Thank you, Mr. Chairman. I do want to make a 
brief opening statement. I have other commitments like Senator 
Wyden, but I am going to be here for the afternoon. I am 
committed to this. The Intelligence Committee is important, but 
this is really important to Idaho.
    First of all, let me say, when we get down to the question, 
Mr. Chairman, I am going to talk about where we are right now. 
But I want to talk a little bit about where we have been on 
this issue because I think it is important, as we go forward, 
to talk about what I think has been an abysmal handling of this 
issue by the Federal Government.
    This has its beginnings with the prior Secretary of 
Interior, Secretary Salazar. He wisely, wisely, suggested that 
the states should get together and create a committee and do 
the best they can to come up with a plan to save the sage 
grouse.
    Virtually everyone is in agreement that this magnificent 
bird should be protected to the degree that it is has a 
sustainable future. In doing that, to make a long story short, 
I am going to use Idaho because our experience probably mirrors 
the experience in some other states. The Governor, who by the 
way is the second best governor our state has ever had----
    [Laughter.]
    Senator Risch [continuing]. Wisely put together a 
collaborative committee to work on this particular issue and 
write a sage grouse plan. The method he used, I think, was 
outstanding because it is the method I used when we wrote the 
successful roadless rule when I was governor.
    What it did is it brought everybody together at the table, 
everyone who would come, and indeed there were some who refused 
to come. But those who would come in a give and take process 
worked on the problem and came up with a plan.
    Included in this group the Governor asked and the U.S. Fish 
and Wildlife Service agreed to have a person who had a seat at 
the table. They worked long and hard, contributing thousands 
and thousands of hours to producing a plan which everyone--and 
used, by the way, some of the best minds on sage grouse biology 
in America. We have some of those people actually in Idaho, 
because we have the bird there. They wrote a really good plan, 
we believed. We were well on our way, I thought, to success 
when all of a sudden the BLM said, well wait a minute, not so 
fast.
    Now I was, still am, relatively new to this Federal 
business. But what I couldn't understand was why would the U.S. 
Fish and Wildlife Service, who had signed off on this plan, be 
trumped by the Bureau of Land Management? Mr. Lyons, you and I 
are going to have a little chat about that as we get into the 
questions.
    Sally Jewell got appointed to be Secretary of Interior, and 
I remember the day I met her. She came to my office seeking 
confirmation and she says, ``Well I'm Sally Jewell''. I said, 
``How do you do?'' Then I asked, ``Do you know what a sage 
grouse is?'' That was my first sentence. Her answer was ``Well, 
no, I really don't.'' I said, ``Well, you are going to before 
very long,'' and we gave her a sage grouse 101 session.
    My biggest complaint was the fact, as we were right in the 
middle of the fact, that the BLM was trumping the U.S. Fish and 
Wildlife Service designation or affirmation that the Idaho plan 
was a good plan and should be accepted.
    I said, ``You know, Sally, when you were head of REI, if 
your marketing department and your economy department were 
butting heads over an issue, you, as the CEO would step in and 
resolve that.'' I said, ``You need to do this here. If BLM can 
trump U.S. Fish and Wildlife Service, why do we have a U.S. 
Fish and Wildlife Service? We may as well just have one 
department.''
    She liked that logic, and I really thought that we were on 
the way to resolving it. I felt at the beginning things were 
going well, but now we have regressed backwards again and then 
some other things really started to happen.
    Part of my undergraduate degree was in land management, 
forest management, to be specific. But I did a fair amount in 
wildlife and in range management. I have never heard of a focal 
area, and that was a long time ago that I went to school on 
those things. So I asked around, what's a focal area? Nobody 
had ever heard of a focal area.
    But that thing was air dropped out of somewhere in one of 
these buildings, one of these great big buildings down here. I 
do not know why it was constructed, but it obviously blew up a 
lot of things.
    In any event, I am frankly disgusted with the way the 
Federal Government has gone about this. I am disgusted with 
where we are right now, and I am very disenchanted with the 
Department of the Interior's efforts which, I think, have 
frustrated the states' efforts which have made really good 
faith, solid efforts to try to do what needs to be done for 
these birds.
    In addition to that, the thing that has always bothered me 
and I have gone over it, is look, certainly there is science 
involved here, but it is not nuclear physics. We keep focusing 
on grazing, mining, transmission lines and everything else, 
when everyone knows that the problem is fire.
    If you have fire and it destroys the expanses of bold, 
mature sage grouse that we have, the sage grouse is going to 
have a problem. Yet everything we argue about is around fire 
and really is not focusing on what can we do to prevent fires 
in these very, very critical areas.
    I am hoping as we have this hearing that we will again 
refocus on what is the real problem for the sage grouse. With 
that, I have talked long enough.
    Thank you very much, Mr. Chairman, and I am going to 
introduce our witness when we go to it.
    Senator Barrasso. Would any other Senators like to make an 
opening statement or introduction?
    Senator Lee.

       STATEMENT OF HON. MIKE LEE, U.S. SENATOR FROM UTAH

    Senator Lee. I would just like to chime in and express how 
proud I am of my state. My state has been a real leader in 
finding ways to balance the need to protect the sage grouse and 
at the same time allow for economic activity.
    I am proud to have the chance to introduce someone who has 
been at the center of that, Kathleen Clarke, who serves as the 
Director of Utah's Public Lands Coordinating Office which is 
part of the Governor's Office.
    Having worked in the Governor's Office during Governor 
Herbert's predecessor's time in office, Governor Huntsman, I am 
familiar with the important role that is played by that office, 
and I am very proud to have Kathleen Clarke representing our 
state. She is someone who understands the competing needs and 
the need to orchestrate and harmonize the competing needs we 
have relative to our federal public lands.
    Prior to her time in her current job she served as the 
Director of the Bureau of Land Management from 2001 until 2006, 
so I think Kathleen Clarke's unique experience as both a state 
official and a federal official uniquely qualifies her to be a 
witness in front of our Committee, and I am proud to introduce 
her today as a witness.
    Senator Barrasso. Thank you, Senator Lee.
    If there are no other opening statements, it is now time to 
hear from our witnesses and we will start with Mr. Jim Lyons, 
who is the Deputy Assistant Secretary for Lands and Minerals of 
the Bureau of Land Management.
    Welcome, Mr. Lyons, we appreciate you being here.

 STATEMENT OF JIM LYONS, DEPUTY ASSISTANT SECRETARY, LAND AND 
      MINERALS MANAGEMENT, U.S. DEPARTMENT OF THE INTERIOR

    Mr. Lyons. Thank you very much, Mr. Chairman and members of 
the Subcommittee. I appreciate the opportunity to talk with you 
today about our efforts in the Bureau of Land Management to 
develop our sage grouse land use plans.
    On September 22nd, 2015, Secretary Jewell announced the 
Fish and Wildlife Service had determined that in fact the 
greater sage grouse didn't warrant protection under the 
Endangered Species Act. That outcome was the result of an 
unprecedented effort to conserve the species and its habitat 
across its remaining range by federal agencies, state agencies 
and other partners. Secretary Jewell referred to the effort 
that we undertook as epic collaboration to reflect the working 
relationship among all parties.
    Three elements of the strategy were key: strong federal 
plans, strong state and private land conservation, and, a new 
and integrated rangeland fire strategy to address the issues 
raised by Senator Risch.
    BLM manages about 50 percent of the remaining greater sage 
grouse habitat, the Forest Service about eight percent and the 
remainder is in state and private management. So planning 
efforts on public lands are an essential element in developing 
the conservation that was necessary to achieve that ``not 
warranted'' determination.
    I want to point out, however, that in 2008 Wyoming actually 
led the way in developing sage grouse conservation efforts 
through the development of the Sage Grouse Executive Order by 
Governor Freudenthal at the time which has been carried forward 
by Governor Mead. They continue to, I think, provide leadership 
in the development of a strategy that's based on the 
identification and protection of what they call core areas.
    It was in late 2011 that Governor Mead, Governor 
Hickenlooper and Secretary Salazar convened a meeting of 
colleagues in the Western states and federal agencies and put 
together what's known as the Sage Grouse Task Force, and that's 
really been the convening body that's coordinated much of the 
work that has gone forth over the past five years.
    The BLM strategy was built on a foundation of sound 
science, developed by the states, federal agencies and 
academicians. I think most critical was the development of 
what's known as the Conservation of Objectives Team (COT) 
Report which was called for by the Sage Grouse Task Force, put 
together by the Fish and Wildlife Service, and really provided 
a solid science-based and peer-reviewed foundation for sage 
grouse plans.
    The direction given to the sage grouse, excuse me, to the 
COT was to address the ``unmet need for an action plan to 
ensure a viable sage grouse population in the West and preclude 
the listing of the species.'' The COT was composed of ten sage 
grouse experts from the states, including a former colleague of 
Kathleen and mine, John Harger, from Utah and five individuals 
from the Fish and Wildlife Service. The COT delivered their 
report in February 2013 and really, that report provided the 
blueprint for conservation strategy that was used to build the 
BLM and Forest Service plans.
    Working from lands that were identified by the states 
through this COT effort, originally identified as PACs, or 
Priority Areas for Conservation, the plans were developed to 
address identified threats to the greater sage grouse, to avoid 
and minimize further degradation of priority habitat in those 
PACs and to restore degraded habitat areas.
    The goal was to work with the states to provide the 
regulatory certainty the Fish and Wildlife Service needed to 
achieve the ``not warranted'' decision that they made. In this 
regard, the plans were built upon the approaches developed by 
the states and actually reflect their geography, the nature of 
the risks that affected each of the states and the economic 
issues of concern to the states.
    As a result, the plans are not one-size-fits-all as they 
have been characterized but actually very different in their 
construction and their approach. We have the core area strategy 
in Wyoming. We have three different types of habitat 
designations in Idaho, not unlike the three types of roadless 
areas that were identified through the plan that you led, 
Senator Risch. We have the all lands all threats approach that 
was developed in Oregon. And Nevada developed its credit system 
from mitigating the impacts associated with greater sage 
grouse. So, each strategy was somewhat different but 
incorporated the basic objective of avoiding and minimizing 
impacts in priority habitat areas and protecting and restoring 
habitat where possible.
    This was the foundation for developing the plans, but I 
want to emphasize the unprecedented collaboration that 
continues into implementation. Recently the Sage Grouse Task 
Force renewed its charter to continue its collaborative 
efforts. Through the Sage Grouse Task Force, the states are 
providing input on policy guidance to implement the BLM and 
Forest Service plans. We've gone through an extensive process 
of review and discussion, some debate, but I acknowledge that 
has delayed the release of some of the guidance, but I think 
it's improved the product and will certainly improve its 
implementation.
    During this past April, stakeholder meetings in each of the 
sage grouse states were convened to discuss the plans, current 
thinking about policy directions, listened to feedback and 
recommendations from all interested parties to help us move 
forward and to encourage further engagement in implementing the 
plans. We continue to work with the states to develop 
principles to guide mitigation which will be managed by each 
state in ways that offset habitat impacts and seek to optimize 
greater sage grouse benefits.
    State and federal agencies are working to identify targeted 
opportunities to protect sage grouse landscapes and restore 
those areas that have been impacted by fire through something 
called the Conservation/Restoration Strategy. A new MOU has 
been signed between the BLM, the Forest Service and NRCS which 
will be implemented through the Intermountain Joint Venture 
that will further the collaboration between ranchers, private 
landowners, permittees and other stakeholders on the ground and 
the integrated rangeland fire strategy, which I want to 
acknowledge was really the brainchild of Governor Otter, who, 
as Senator Risch pointed out, highlighted the importance of 
fire as a threat to the sage grouse in the Great Basin. His 
comments at a WGA meeting caught the Secretary's attention and 
that led to the creation of a Secretarial Order and the rapid 
development of an integrated rangeland fire strategy plan which 
we are implementing with the states. And I want to thank the 
Committee and the members in general for their support of the 
resources we need to implement that plan. It's been very 
effective.
    Through this collaborative approach to implementation, the 
plans will not only benefit the greater sage grouse, but we 
believe, will help to preserve the West's heritage of ranching 
and outdoor recreation, protect hundreds of wildlife species, 
including elk and pronghorn and mule deer, who also rely on 
sage grouse. We hope to avoid the need to list other species of 
concern in the sage brush ecosystem, which is widely 
acknowledged as the most endangered ecosystem in North America, 
and balance conservation objectives and development goals. The 
plan seeks to conserve the most important sage grouse habitat 
while still providing access to key resources. One example, the 
vast majority of areas with high potential for oil and gas and 
renewable energy development, are outside of priority sage 
grouse habitat areas. Most importantly, the plans recognize 
that a healthy economy and a healthy ecosystem are inextricably 
linked.
    So I wanted to close by emphasizing that strong federal 
plans are one critical component but so too is the continued 
collaboration and coordination with the states, in particular, 
working to achieve outcomes on state and private lands. 
Effective conservation measures have been framed. Now it's our 
job to implement them in a similar, collaborative and 
coordinated fashion.
    Again, I thank you for the opportunity to appear today, and 
I look forward to the comments of my colleagues and the 
discussion to follow.
    [The prepared statement of Mr. Lyons follows:]
   
   
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    Senator Barrasso. Thank you, Mr. Lyons.
    Next is Mr. Robert Harper, who is the Director of Water, 
Fish, Wildlife, Air and Rare Plants at the U.S. Forest Service.
    Thank you for being with us.

 STATEMENT OF ROBERT HARPER, DIRECTOR, WATER, FISH, WILDLIFE, 
AIR & RARE PLANTS, U.S. FOREST SERVICE, NATIONAL FOREST SYSTEM, 
                 U.S. DEPARTMENT OF AGRICULTURE

    Mr. Harper. Chairman Barrasso, Ranking Member Wyden and 
members of the Subcommittee, thank you for the opportunity to 
discuss USDA's efforts to work with states, stakeholders on the 
implementation of amendments to the Forest Service land use 
plans for sage grouse conservation. I'm pleased to serve as the 
witness today and share Forest Service efforts to implement the 
amendments.
    The design and implementation of sage grouse conservation 
amendments represents a remarkable effort to develop and 
implement a landscape-scale, science-based and collaborative 
strategy to conserve the greater sage grouse in the sage brush 
ecosystem.
    We recognize sage brush landscapes of the interior West are 
valued and used by people with long and deep connection to the 
land and that our actions may affect many people. The 
amendments and their implementation are strengthened by the 
contributions of local partners and their expertise. Evidence 
of our work here is reflected in the Fish and Wildlife 
Service's September 2015 decision that the greater sage grouse 
was not warranted for listing under the Endangered Species Act.
    We are deeply engaged with state and federal working groups 
at multiple levels and my colleague, Jim Lyons, mentioned a 
number of these. Agency leaders serve on the Sage Grouse Task 
Force, me. The Sage Grouse Task Force is comprised of 
governors' representatives and federal executives who have 
worked together for several years and through the development 
of federal plans and have committed to continue our work to 
implement the plans.
    We're contributing to the coordination of multiple state 
mitigation frameworks, and we're engaged with state-specific 
sage grouse working groups. We're developing implementation 
protocols, and we've shared our draft protocols with states and 
federal partners seeking their insights and feedback. And we 
have posted the protocols on a publicly available website. We 
are coordinating closely with other agencies. For example, 
we've developed an MOU with the State of Nevada and the BLM to 
cooperate on the use of Nevada's conservation credit mitigation 
system. And we're developing MOUs with the states of Utah and 
Wyoming to formalize frameworks necessary to formulize adaptive 
management and monitoring strategies. At the local level we're 
working with livestock producers and states to assess range 
land conditions and identify if and where changes to allotment 
management for sage grouse conservation may be required. We're 
also working with states and livestock producers to formulate 
on site monitoring and adaptive management frameworks.
    USDA continues to be instrumental in coordinating sage 
grouse conservation. Forest Service actions are enhanced by our 
work through our sister agency, the Natural Resources 
Conservation Service, and we're part of an over $200 million 
investment in sage grouse conservation through Fiscal Year 
2018.
    We've entered into an MOU with the NRCS and BLM to provide 
a collaborative framework to conserve sage grouse in the sage 
brush ecosystem. We continue to work together to implement 
specific actions such as removing conifers, preventing the 
spread of invasive weeds and reducing the risk of wildfire.
    And finally, if I could leave two messages with the 
Committee it would be this: that the plans were collaboratively 
developed and their implementation is and will continue to be 
informed by contributions from local partners; and two, the 
rising cost of wildfire at the Forest Service continues to 
reduce the resources we have to implement non-fire related 
conservation work, including the implementation of these plans. 
We very much appreciate the support of the Subcommittee to find 
a fix to the Forest Service fire funding issue.
    With that, I thank the Committee for your support and I 
will be happy to answer any questions when the time is 
appropriate.
    [The prepared statement of Mr. Harper follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    
    
    Senator Barrasso. Thank you very much, Mr. Harper.
    Next we will hear from Ms. Kathleen Clarke, Director of the 
Public Lands Policy Coordinating Office for the State of Utah.
    Thanks for being with us.

  STATEMENT OF KATHLEEN CLARKE, DIRECTOR, PUBLIC LANDS POLICY 
               COORDINATING OFFICE, STATE OF UTAH

    Ms. Clarke. Chairman Barrasso and members of the Committee, 
it is a privilege for me to testify before you today on matters 
relating to the sage grouse conservation and implementation of 
federal sage grouse conservation plans.
    As was mentioned, I currently represent the State of Utah 
and serve in the position of Director of the Public Lands 
Policy Coordinating Office. I was also asked by the Governor to 
be the state's representative on the task force that has been 
referenced.
    In these positions I do oversee the implementation of 
Utah's sage grouse conservation plan, and I oversee 
coordination with the federal agencies on the implementation of 
their plan.
    The sage grouse population in Utah makes up only about 
seven percent of the total national population. We have 7.5 
million acres of habitat, and about half of that is owned by 
the Federal Government.
    Utah got on this problem years before it was--they were 
approached by Secretary Salazar or even by his predecessor. We 
have nearly 20 years of research and data that's been 
accumulated by graduate students who have been digging into 
this problem for years, and that work was done based on the 
foresight of our division of wildlife resources and that 
actually started when I was directing the Utah Department of 
Natural Resources.
    Since 2006 the state has invested over $50 million into 
sage grouse management and research. We have protected 25,000 
acres of habitat and increased sage grouse populations by 50 
percent since 2013.
    The greatest threats to sage grouse in Utah are fire, cheat 
grass and the encroachment of Pinyon-Juniper trees into the 
sage grouse habitat. We have found that as we prevent and 
manage fire and restore sage brush habitat by removing excess 
trees, we actually can increase sage grouse populations.
    I just want to highlight a few of the issues and 
frustrations we have been dealing with our federal partners 
regarding the federal plans.
    I remain very concerned that one-size-fits-all national 
standards are being imposed to manage sage grouse in Utah. For 
example, the Forest Service is looking to implement grass 
heights, stubble height standards for livestock that are based 
on conditions in Idaho and Oregon, but they're wholly 
unrealistic for Utah. Critical sage grouse conservation areas 
in the Southern part of Utah have likely never seen the seven 
inches that the Forest Service is looking for and they likely 
never will. Imposition of an unachievable grass height standard 
will result in the eventual elimination of graze stock or of 
livestock grazing in the area which could lead one to believe 
that, in fact, that is the desired outcome of the federal plan.
    In Utah alone, $2.5 billion a year comes from economic 
activities in sage grouse habitat. And under these federal 
plans, oil and gas development is being severely restricted, if 
not totally banned, depending on the designation or the 
classification of habitats the Federal Government imposes. Last 
year alone there were over 480,000 acres of oil and gas leases, 
lease requests that were deferred by federal agencies due to 
sage grouse conservation.
    And my third point is that the feds are suffering from 
woeful inertia in dealing with their own plans. The federal 
officials in our state have been waiting for months for that 
Washington knows best implementation guidance. And as I have 
suggested, sage grouse conservation action needs to be the 
result of bottom/up processes that involves many partners and 
that is informed by the best available science for that 
particular locale.
    All too often while working with federal managers we have 
been told that sage grouse-related decisions are all on hold 
until its direction comes from the DC brain trust. What a waste 
of time and opportunity.
    In summary and drawing on 35 years of experience dealing 
with public land issues, I recommend just a few changes that, I 
believe, could help.
    First, I recommend the BLM follow the state sage grouse 
plan. It is working, and it will continue to work. It is an all 
lands plan, and we invite the Federal Government to fully 
participate.
    Second, we need less Washington, DC, interference in plan 
implementation. Local BLM and Forest Service officials are 
competent, they are very capable and we have worked closely 
with them in refining our shared understanding and knowledge 
about the sage grouse and in undertaking habitat restoration 
projects and habitat protection projects. These partners stand 
by our side regularly and they are essential to the successes 
that we have enjoyed.
    I urge the BLM and the Director of the BLM and the Chief of 
the Forest Service and their respective Cabinet Secretaries to 
step back and allow local federal officials to do their jobs 
without the nagging requisite of constantly seeking permission 
from the mother ship in DC before making decisions or taking 
action.
    And finally, we hope that the federal agencies will adopt 
the compensatory mitigation measures that are being developed 
in the states.
    Again, we feel like a one-size-fits-all standard would be 
inappropriate and very unhelpful. Our legislature directed the 
development of such a plan, and we are asking that the federal 
agencies adopt that.
    Let me assure you that the State of Utah will continue to 
protect, conserve and create sage grouse habitat regardless of 
the federal plan. We are confident that our plan addresses the 
real threats to conservation of the sage grouse in Utah rather 
than the federal plan that seems more focused on limiting 
access to federal lands than on species conservation.
    Thank you for this opportunity.
    [The prepared statement of Ms. Clarke follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      
    Senator Barrasso. Thank you very much, Ms. Clarke. We 
appreciate you being here to testify.
    Next we will hear from Ms. Catherine Macdonald, who is the 
Oregon Director of the Conservation Programs of The Nature 
Conservancy.
    Thanks for joining us.

     STATEMENT OF CATHERINE MACDONALD, OREGON DIRECTOR OF 
         CONSERVATION PROGRAMS, THE NATURE CONSERVANCY

    Ms. Macdonald. Thank you, Chairman Barrasso, members of the 
Subcommittee. It's an honor to have the opportunity to talk to 
you and testify about the federal agency's efforts to implement 
the greater sage grouse land use plan amendments.
    I serve as the Oregon Director of Conservation Programs, 
and over the past six years I have worked closely with our 
federal agencies as well as state agencies and a wide variety 
of stakeholders to develop an all-lands-all-threats approach to 
greater sage grouse conservation in Oregon.
    The Nature Conservancy has over 60 years of experience 
working with private landowners and government agencies across 
the nation and across the world. Our mission is to conserve the 
lands and waters upon which all life depends and our efforts 
are grounded in science and collaboration. We work to find 
solutions that are good for nature and support healthy 
economies. Stabilizing and increasing sage grouse populations 
is a priority for The Nature Conservancy.
    We are witnessing a tremendous loss of native sage brush 
habitat across the West. Conserving habitat for sage grouse 
will benefit over 350 other species of conservation concern and 
healthy habitat for sage grouse also produces good range land 
for ranchers.
    Conservancy scientists and practitioners are conducting 
research and helping private and public landowners protect and 
restore greater sage grouse habitat across the West. In Oregon, 
for example, we are advancing research in partnership with the 
agricultural research station in Burns. We are working with a 
commercial, Italian pasta maker and a little ingenuity and 
problem solving with the scientists at that research station to 
try and improve restoration success of sage grouse habitat 
after wildfire.
    In addition, we helped to design a decision support tool to 
enable us to identify where the most important investments can 
be made to benefit sage grouse, and we've been providing 
technical assistance to ranchers who are interested in signing 
up for conservation agreements with the Fish and Wildlife 
Service.
    The work of many over the past six years really resulted in 
an historic accomplishment. The federal agencies should be 
commended for the land use plan amendments they developed. The 
plan amendments applied sound science and provide a cohesive 
strategy for addressing threats across the range of the 
species. They were an essential ingredient to the 2015 decision 
that the greater sage grouse did not warrant listing under the 
Endangered Species Act. That was a high bar to reach.
    In Oregon, the Bureau of Land Management, Fish and Wildlife 
Service, Forest Service and Natural Resource Conservation 
Service have been valuable partners and great problem solvers. 
In 2010 they began working proactively with the state. Over the 
course of the next five years they continuously engaged over 60 
stakeholders, representatives from local governments, the 
Oregon Cattlemen's Association, energy companies, conservation 
organizations, state agencies and our congressional delegation. 
Our delegation's leadership and staff participation in this 
effort was greatly appreciated. Collectively, we discussed 
challenges, developed coordinated solutions and these helped 
inform both the federal plans and our state action plan.
    In addition, the Fish and Wildlife Service and Bureau of 
Land Management worked with the Oregon Cattlemen's Association 
and eight Oregon counties to develop candidate conservation 
agreements. These provide options, guidance and critical 
assurances for ranchers with sage grouse habitat. This kind of 
collaboration continues today. For example, the federal 
agencies are working closely with our state and local 
government to develop joint implementation methodologies for 
determining disturbance levels. In response to the threat of 
wildfire, the Bureau of Land Management is working closely with 
range land fire protection associations to coordinate wildfire 
response in priority habitat. And after the massive Soda fire 
that burned more than 400 square miles in Oregon and Idaho, the 
Federal Government provided funding for restoration efforts on 
private lands. These examples of collaboration give us optimism 
that we will be able to collectively resolve challenges in the 
future.
    The Nature Conservancy remains concerned about legislative 
attempts to stall, delay or limit federal agencies' authority 
to implement their greater sage grouse resource management plan 
amendments.
    Greater sage grouse populations have declined by more than 
97 percent over historic counts. Given that the BLM and the 
Forest Service manage nearly two-thirds of the remaining sage 
grouse habitat, the federal plan amendments are a critical part 
of an effort to restore and conserve sage grouse. Delaying or 
suspending the plan amendments will distract us from the most 
important thing/task at hand and that is making significant 
progress implementing actions to stabilize and rebuild sage 
grouse populations.
    The federal agencies need the authority and funding to act. 
Oregon is counting on our federal partners. We need our federal 
partners to implement their plans in Oregon and across the West 
to avoid the need to list the species in five years.
    We urge Congress to give federal agencies support and the 
resources they need to collaborate with states and public land 
stakeholders to implement their plans. The federal agencies 
have already conducted public meetings across the West to get 
input on next steps. We hope that this engagement will continue 
and that all stakeholders will make a strong commitment to 
collaboration. With so much at stake, now is the time for us to 
focus on effective implementation.
    Again, thank you for the opportunity to present testimony.
    [The prepared statement of Ms. Macdonald follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
     
    Senator Barrasso. Thank you very much, Ms. Macdonald.
    Senator Risch, could I ask you to please introduce our next 
guest?
    Senator Risch. Thank you very much, Mr. Chairman.
    It is my honor and privilege to introduce to the Committee 
and welcome her to the Committee, Brenda Richards.
    Brenda has a higher calling than any of us. She is actually 
a county-elected official in Owyhee County, Idaho. She serves 
as the County Treasurer.
    More importantly than that, she is actively involved in 
this issue and many other issues having to do with the public 
lands. She and her husband, Tony, are fourth generation 
ranchers in Owyhee County, larger than some states in this 
United States. They operate in both Idaho and Nevada.
    She has served as on the Board of Directors of both Idaho 
and Nevada Cattlemen's Association, and she has served as the 
Federal Lands Chair for the Idaho Cattlemen's Association for 
five years. She worked with Senator Crapo very closely on the 
development of the Owyhee Initiative, and she has worked over 
14 years on that and is in her fourth term as Chairman of the 
Board of Directors of that organization.
    Although her degree is in accounting, she knows a lot more 
about sage grouse than a lot of PhDs who study this, because 
she is right out in the middle of it.
    Ms. Macdonald, you talked about the Soda fire. That is 
ground zero for Brenda's ranch, and they have been greatly 
affected by the catastrophe that was the Soda fire.
    With that, we welcome Brenda and appreciate hearing her 
thoughts which may run slightly contrary to some of the views 
that our agency friends have.
    Thank you so much.
    Senator Barrasso. Ms. Richards, thank you for being here 
with the Committee. We welcome your testimony.

STATEMENT OF BRENDA RICHARDS, PRESIDENT, PUBLIC LANDS COUNCIL, 
               AND RANCHER, OWYHEE COUNTY, IDAHO

    Ms. Richards. Thank you, Senator Risch, for that kind 
introduction.
    Chairman Barrasso, Ranking Member Wyden and members of the 
Committee, my name is Brenda Richards and I am the President of 
the Public Lands Council. As stated, my husband, Tony, and I 
run a cow/calf operation in Reynolds Creek, Idaho, which is in 
Owyhee County.
    The Public Lands Council is the only national organization 
that is dedicated solely to representing roughly 22,000 
ranchers who graze in steward over 250 million acres of federal 
land while owning 140 million acres of adjacent private land. 
The businesses we operate form the economic nucleus of many 
rural communities, providing jobs and opportunity where it 
wouldn't otherwise exist.
    Additionally, ranchers often serve as first responders in 
emergency situations across vast remote stretches of unoccupied 
federal lands. And simply put, public lands ranchers are an 
essential element of strong communities, healthy economies and 
productive range lands across the West.
    Owyhee County is approximately 78 percent public land. Our 
terrain is high desert, and we have some of the best sage 
grouse habitat in the West. Owyhee County is in the heart of 
sage grouse habitat.
    Like much of the rural West, ranching drives our economy 
and it has for more than 100 years resulting in healthy, 
productive range lands that are as critical to the people of 
Owyhee County as the air we breathe or the water we drink.
    Ranchers are an essential component of any successful 
species conservation effort. Recognizing the integral role we 
play as land managers and the rising concerns about the sage 
grouse populations, Owyhee County established a sage grouse 
local working group in 1995. This local working group developed 
and implemented the Owyhee County's Sage Grouse Local Working 
Group Plan by 2000, and it's an effective conservation plan for 
the sage grouse.
    Over the years we have met and overcome numerous challenges 
all through cooperation and coordination at the local level. 
Whenever the Department of Interior moved the goal posts on us, 
our working group responded, amending our plan to ensure that 
it remained viable and effective as a conservation effort 
ensuring the on the ground successes were still being achieved 
by local ranchers, land owners, state agencies and the local 
working group and that they would continue. This working group 
is still active today.
    The results of voluntary local conservation efforts like 
this are all around the West, and they are undeniably a great 
part of the habitat that's being preserved and how the species 
is responding. According to the latest data from the August 
2015 Western Association of Fish and Wildlife Agency's report, 
the population has increased by 63 percent on the sage grouse 
over the past two years alone.
    So to be blunt, the BLM's top/down approach of forcing a 
one-size-fits-all, or the landscape-scale management of sage 
grouse conservation efforts through the plan amendments that 
were finalized last year, risk undoing over 20 years of 
effective collaboration between local stakeholders. Time and 
time again the BLM has touted their collaboration with the 
local working groups and the state partners in newsletters, 
press releases and sage grouse meetings, but unfortunately, the 
land use plans that have emerged reflect none of that effort.
    Rather than embracing grazing as a tool for conservation 
benefits, these plan amendments impose arbitrary restrictions 
that seem to satisfy requirements from newly minted objectives 
such as focal areas and net conservation benefit. Perhaps 
because we were so easily regulated and utilized such a large 
area, many of these restrictions and limitations are aimed 
directly at grazing, totally ignoring the fact that proper 
grazing is not classified as a threat. Wildfire, invasive 
species and infrastructure are the major threats, all of which 
are most effectively managed through grazing as a tool.
    To arbitrarily restrict grazing when it's needed is a 
recipe for failure. It is also critical to note that 
restrictions on federal grazing permits will absolutely impact 
adjacent private grazing land where as much as 80 percent of 
the productive sage grouse habitat exists.
    The livestock industry has filed detailed comments on these 
plans at each stage in the process. While they are too numerous 
to go over here, these plans fail in a variety of important 
areas.
    Again, primary threats to the greater sage grouse are 
wildfire and invasive annuals like cheat grass and require 
active management through tools like grazing, not arbitrary 
objectives such as those in the habitat objectives tables, 2-2, 
found throughout the plans.
    Since the online newspaper, Greenwire, leaked the BLM's 
instructional memorandum draft several months ago, our industry 
has repeatedly requested that BLM engage us in the finalization 
of this guidance. Repeatedly those requests have been denied.
    To date our only reference for what this guidance might 
look like comes from the leaked documents found online. We have 
been told we will get to see the documents once they are 
completed and ready for implementation, but we feel that is 
well past the point where we, as critical, on-the-ground 
partners, can offer any constructive input to the process.
    In conclusion, this lack of collaboration, the misplaced 
focus on reducing grazing and disregard for ongoing local 
management is precisely the reason these plans must be thrown 
out. Local input and decades of successful collaborative 
conservation efforts must be the starting point for federal 
involvement not an afterthought.
    I thank you for the opportunity to appear and welcome any 
questions.
    [The prepared statement of Ms. Richards follows:]
    
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



    Senator Barrasso. Well, thank you, Ms. Richards. We 
appreciate your testimony.
    Next we will hear from Ms. Katie Sweeney, who is the Senior 
Vice President and General Counsel of the National Mining 
Association.
    Thanks for joining us.

  STATEMENT OF KATIE SWEENEY, SENIOR VICE PRESIDENT & GENERAL 
              COUNSEL, NATIONAL MINING ASSOCIATION

    Ms. Sweeney. Good afternoon, Chairman Barrasso, other 
members of the Subcommittee. My name is Katie Sweeney. I 
appreciate the opportunity to testify on behalf of the National 
Mining Association (NMA) about the impacts of the BLM and 
Forest Service land use plans related to sage grouse 
conservation.
    I want to emphasize that NMA shares the concerns of other 
panelists regarding the onerous restrictions imposed by the 
land use plans; however, today I will focus my testimony on an 
outgrowth of the plans that uniquely impacts the mining 
industry.
    As a consequence of the final land use plans, the Interior 
Department is proposing to withdraw ten million acres of sage 
grouse habitat from new mining operations, the largest land 
withdrawal in the history of the Federal Land Policy and 
Management Act. This is particularly troubling given that 
mineral development is already either restricted or banned on 
more than half of all federally-owned lands.
    The agencies assert that the mineral withdrawal is 
necessary to conserve the sage grouse but then attempts to 
downplay the impacts of the withdrawal by claiming that the 
lands involved are not highly prospective for miners.
    But existing USGS and state data that was submitted during 
the scoping period rebut this assertion, and one of the best 
indicators of mineral potential in any given area are the 
presence of existing mining claims. Yet BLM and Forest Service 
never quantified the number of existing mine claims in the area 
recommended for withdrawal, nor did BLM attempt to do so in the 
scoping process.
    NMA's research, that's attached to my testimony, identified 
nearly 6,000 existing mining claims in the ten-million-acre 
withdrawal area. The maps which I'm going to bring up on the 
screen, not only show that these areas are likely to be highly 
prospective for minerals, but the quantification of the 
footprint of mining activities in the proposed withdrawal area 
calls into question a necessity of the entire withdrawal.
    [The information referred to follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
     
    The maps displayed show the overlap of each--of existing 
mining claims and the proposed withdrawal area in each of the 
affected states. We identified the number of existing mining 
claims in the proposed withdrawal area, the total acreage of 
those claims and the percentage of the proposed withdrawal area 
impacted by the existing mining claims, and I think the results 
are pretty telling.
    These are in alphabetical order, not order of importance. I 
know that there are many Committee members who have--who 
represent these states.
    In Idaho. So, you can see the overlap, the green and then 
the red and blue dots are the mining claims. We are looking at 
less than one percent of the nearly four million acres 
withdrawn are impacted by existing claims.
    Hold on. Uh oh, sorry. We'll go to Montana, I promise. I 
can find it. There we go. In Montana, it's less than two 
percent of the nearly one million acres withdrawn. In Nevada, 
it's less than three percent of the nearly three million acres 
withdrawn. In Oregon, it's less than one percent of the nearly 
two million acres withdrawn. In Utah, it's less than one 
percent of the more than 230 thousand acres withdrawn. And in 
Wyoming, it's less than three percent of the more than 250,000 
acres withdrawn. So in total the existing mining claims impact 
only about one percent of the ten-million-acre area. How can a 
ten-million-acre withdrawal be justified by an activity with 
this small of an existing footprint?
    For comparison sake, in 2015, and I think this is the 
wildfire everybody else was mentioning, that wildfire 
eliminated 200,000 acres of BLM sage grouse habitat. The 
footprint of mining in the withdrawal area barely registers 
compared to the impact of a single, large wildfire.
    The withdrawal will do very little to protect the sage 
grouse or its habitat as mining activities are not a major 
threat. And as others have said, government reports prepared in 
conjunction with the land use plans confirm this fact as they 
uniformly conclude wildfire and invasive species are the 
greatest threats. Data compiled by the U.S. Geological Survey 
clearly show that habitat loss due to mining, range wide, are 
minor totaling only about 3.6 percent and can be mitigated with 
appropriate project specific conservation measures.
    The proposed withdrawal also ignores the role that mining 
companies played in improved habitat for sage grouse with 
voluntary conservation efforts and well-designed reclamation, 
mining activities regularly result in higher value habitat than 
if the same lands were left unmanaged. The impacts of the 
withdrawal reach far beyond mining.
    Our domestic mining industry serves as the front end of the 
supply chain for the minerals and materials vital to the 
success of our health care, transportation, communication, 
national defense and countless other industries. Further 
limiting access to domestic minerals is detrimental. In the 
last two decades the United States' dependence on mineral 
imports has doubled, and today less than half of the minerals 
American manufacturers need are sourced domestically.
    In summary, the proposed withdrawal is simply bad public 
policy that comes with a high price tag for U.S. mining and the 
vast sectors of our economy that depend upon a reliable and 
secure supply chain of minerals and metals.
    I appreciate the opportunity to testify.
    [The prepared statement of Ms. Sweeney follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
        
    Senator Barrasso. Well, thank you very much to each and 
every one of you. We are going to have some questions for 
members of the panel.
    We will start with Senator Lee.
    Senator Lee. Thank you very much, Mr. Chairman.
    Thanks to all of you for being here. This is an important 
topic. It is an especially important topic to those of us from 
the Western United States who have to live with the 
consequences of this issue.
    As I mentioned earlier, and as Ms. Clarke mentioned at 
length in her testimony, Utah has done an extraordinary job at 
managing these competing interests, at balancing the need to 
protect the sage grouse while at the same time maintaining an 
environment in which our economy can grow and where economic 
activity can occur in a responsible fashion.
    I am worried though. I am worried that Utah's federal 
partners have been showing a pronounced propensity to ignore 
suggestions made by the state. When this happens trust between 
the state and its citizens on the one hand and the Federal 
Government and its agencies and its regulators on the other 
hand, tends to erode. When that trust tends to erode, it 
becomes far more difficult for us to achieve what we want to 
achieve; it becomes far more difficult for us to protect the 
bird; and, it becomes far more difficult for us to accomplish 
all the things, all the goals, the aspirations, that we have in 
common.
    On May 29th, 2015, just over a year ago, the BLM and the 
Forest Service released their proposed land use plan 
amendments. Utah seized on this opportunity and submitted a 
substantial comment making many dozens of suggestions about how 
best to manage the sage grouse in Utah. Utahans know well how 
to deal with this, within our own state. After all, Utahans 
have to live with the consequences of any efforts in those 
areas.
    In light of that, Mr. Lyons, I would like to ask you a 
question. Do you know how many of those suggestions, the 
suggestions that were submitted by the State of Utah, were 
adopted in the September 9th, 2015, final record of decision?
    Mr. Lyons. Well, Senator, I think I'd make two points. One 
is I would have to go back and I would have to talk with the 
state officials and others with regard to the nature of the 
requests for changes in the plans and how they responded. And I 
would also point out that many changes were made in the plans 
in collaboration with the state before those final drafts were 
issued.
    So I want to make clear that many issues were resolved 
before we got to that point. There may have been other issues 
that were raised in the consistency review which is what, I 
assume, you're referring to, but I'd have to check with staff 
to see what changes were made both before and subsequent to the 
consistency review.
    Senator Lee. Okay.
    [The information requested was not provided as of the date 
of printing.]
    Senator Lee. I am going to ask Ms. Clarke, to get her 
perspective on this and on the point that you made in a moment.
    My understanding is that your answer to that question could 
be very simple. It is zero, none, not one of them, not one of 
the suggestions made by the State of Utah submitted to the 
Federal Government were followed, not a single one of them. 
This is incredibly frustrating.
    I would like to think that my state has earned a seat at 
the table, not only because it is affected by this in a way 
that most states are not, but also because my state has spent 
upwards of $50 million trying to figure out how to protect the 
sage grouse. That is a lot of money for a small, not terribly 
wealthy state in the Rocky Mountains. And they have spent this 
just studying the sage grouse and trying to get this right.
    It is not as though we have just thrown that money out 
there just to spend it. It is not as though we have wasted it. 
These efforts have had a pretty good effect. The sage grouse 
population in Utah has, as I understand it, increased by over 
50 percent just since 2013. To have every single one of Utah's 
land use plan suggestions categorically rejected and not 
incorporated makes your agencies appear aloof and unresponsive, 
unconcerned about the dynamic of the state/federal partnership.
    The state/federal partnership, this is a dynamic that I am 
constantly told exists between federal land use managers on the 
one hand and state and local officials on the other hand. Yet 
curiously, at least within my own state, I hear that only from 
the federal officials. I never hear the state officers describe 
it that way because more often than a partnership it is much 
more of a dictatorial relationship.
    So, Ms. Clarke, I would like to ask you had the BLM and had 
the Forest Service adopted at least some of Utah's land use 
amendment suggestions, what effect would those changes have 
made on the State of Utah and on the State of Utah's ability to 
protect the bird?
    Ms. Clarke. Utah's plan and our many recommendations to the 
Federal Government were based on a directive that we had as we 
adopted the plan and that was to make sure we were taking good 
care of the bird, conserve the bird, but also protect economic 
opportunity. That wasn't an easy balancing act, but we did a 
remarkable job with it.
    One thing we did is identify 11 separate areas where we 
created individual plans focused on the local threat. We have 
used incredibly good science as we go through this. We think we 
could have held on to that balance and wouldn't have had to say 
no to many things had we been able to really have some of our 
recommendations accepted.
    One other thing is had they been accepted Utah probably 
wouldn't be in litigation with the Federal Government over 
these plans right now.
    Senator Lee. What became of those suggestions though while 
we are on that topic?
    Ms. Clarke. We had a lot of discussion with the Federal 
Government. They were available to talk. The frustration was we 
had a lot of talk and the Federal Government did what they 
wanted to do.
    Senator Lee. Okay, thank you. I see my time is expired.
    Senator Barrasso. Thank you, Senator Lee.
    Senator Heinrich.
    Senator Heinrich. Mr. Lyons, greater sage grouse 
populations have declined from historical highs that have been 
at times estimated to be as high as possibly 16 million birds 
to just a few hundred thousand. Irrespective of exact 
population levels, which clearly fluctuate with precipitation, 
in particular, this represents an enormous and very alarming 
decline.
    In your opinion, based on the strength of the conservation 
included in the state plans alone, would the U.S. Fish and 
Wildlife Service have been able to arrive at its decision not 
to list the greater sage grouse as threatened? In other words, 
do the state plans alone offer the kind of durable and 
scientifically sound conservation requirements to achieve long-
term population success and avoid listing?
    Mr. Lyons. Well Senator, I don't know that I can speak for 
the Fish and Wildlife Service. So I will not attempt to----
    Senator Heinrich. Let me point out that you are the only 
Interior federal----
    Mr. Lyons. Unfortunately I don't have to----
    Senator Heinrich. Yes.
    Mr. Lyons. But I would say that, you know, the challenge we 
faced was building plans in collaboration with the states as we 
did and then providing both the flexibility necessary to 
respond to local conditions and recognize local initiatives, as 
Kathleen just spoke of, but at the same time provide sufficient 
consistency across the larger landscape such that the threats 
identified by the COT report which again, was authored by a 
team that included a dominant number of state officials, to 
address those in a way that provided sufficient consistency so 
that the Fish and Wildlife Service felt that those threats were 
adequately addressed. And I think that was the challenge that 
we faced.
    Senator Heinrich. Speaking of those threats, Mr. Lyons, if 
you listened to the opening comments from some of my 
colleagues, you could be left with the impression that the 
Department of the Interior has not taken seriously or addressed 
the deleterious impacts that fire has on mature sage brush.
    Would you tell us a little bit about what exactly 
Department of the Interior is doing in that area?
    Mr. Lyons. Well, I'd be glad to, Senator.
    I think, as I indicated in my opening statement, we 
recognized early on the significant threat associated with 
range land fire. I think we recognized as well that past 
efforts had not adequately dealt with that threat.
    And so, Secretary Jewell issued a Secretarial Order, 336, 
that directed us to develop a strategy for preventing, 
suppressing and restoring lands impacted by range land fire in 
short order. I think the Executive Order was issued in January. 
We had preliminary recommendations put together to deal with 
the pending fire season by March and a final plan for an 
integrated strategy put together in May. And in my 35 years in 
government I've never seen things move that quickly. So I was 
pleased to see that happen.
    We used that then to initiate efforts, again, in 
collaboration with the states to secure more equipment, to be 
in position, people in areas where we knew there was a high 
fire risk.
    We worked with the Western Association of Fish and Wildlife 
Agencies, WAFWA, which is basically the states' Fish and Game 
directors, to identify areas of high risk to fire as well as 
those of high resistance and resilience so we could better 
target our efforts.
    We made a significant investment in working with the states 
in helping to train and provide resources for Range Land Fire 
Protection Associations. Idaho has those. Nevada has those. 
Oregon has a program, as does Nevada. And those individuals 
become, really, the first line of defense in dealing with range 
land fire. And I think it was a very successful effort. We also 
put money into training veteran crews and added a substantial 
number of veteran crews to the effort.
    So, we took that threat seriously, and fortunately, we were 
able to limit losses last year. I think the Soda fire, though, 
was a reminder of how significant it is that we get prepared to 
deal with this threat.
    Senator Heinrich. I am quickly running out of time, so I 
want to get to one more question. Thanks for your answer, Mr. 
Lyons.
    Ms. Macdonald, I wanted to ask a little bit about the sage 
grouse initiative that is led by NRCS. It has worked with 
ranchers, farmers and private landowners to voluntarily protect 
more than four million acres of sage grouse habitat.
    Can you just talk a little bit about this on the ground, 
collaborative work and how it has achieved so much success?
    Ms. Macdonald. Absolutely, thank you for the opportunity, 
Senator Heinrich.
    The Sage Grouse Initiative has been amazingly effective. 
It's done a great job of using science to inform its decision 
making and focus its resources. The Natural Resource 
Conservation Service does a great job working with private 
landowners, and we've been pleased to partner with them in the 
development of some of the science that's been used to target 
resources.
    They move mighty quickly and they've also been able to 
really do things that not only benefit the bird, but also 
benefit the herd and I think that's part of what have made them 
so successful.
    May I follow up just on a couple of other points you made? 
You know, in the State of Oregon our final request for changes 
in the Governor's Consistency Report were also, I think, not 
taken. But our governor, our governor and state, really felt 
like it was so important to get the consistency across the BLM 
plans that we were comfortable having a little difference 
between our plan and the BLM's plan. And we are pretty 
confident that we're going to be able to work a way to get 
those differences to be more consistent.
    So, while I appreciate the frustration Senator Lee 
expressed, I think that there had been a lot of movement along 
the way to make changes. You can see that reflected in our plan 
and a lot of the other state plans where differences exist.
    Thank you.
    Senator Barrasso. Thank you, Senator Heinrich.
    Senator Daines.
    Senator Daines. Thank you, Mr. Chairman.
    Montana is a state that has rich natural resources. We say 
that we are a state where we work but we also like to play. As 
Montanans, I think we understand that balance we need to have 
where we want to have a place we can develop our natural 
resources.
    We can have a thriving agriculture business. At the same 
time, we want to make sure we protect our environment so we 
have a place to take our kids fishing and hunting and 
backpacking on the weekends. That is who we are as Montanans.
    I am an avid outdoorsman. I love spending time outside when 
I am not here in Washington, DC. We found in Montana that 
balance, and we struck that with hard work and the 
encouragement of farmers, ranchers, folks in the energy 
industry, from conservationists to put together a state plan in 
terms of sage grouse conservation.
    In Montana the sage grouse habitat is predominately 
occupied by private landowners, and 64 percent of the sage 
grouse habitat in Montana is in the hands of the private 
citizens.
    In Montana we also have a checkerboard land management 
structure, typically by sections, square miles, a section of 40 
acres. Federal tracts are oftentimes surrounded by state and 
private lands, and these federal requirements can have a 
significant impact on operations on the adjacent private or 
state lands.
    I was disappointed, I must say, to see that the plan, put 
together by BLM, rather than complementing what was done with 
our state plans in Montana, there was conflict. I was 
disappointed to see the federal plans largely inconsistent with 
the state plans in some very important areas. Remember, the 
birds don't know the difference between a BLM section, a 
private section or a state section.
    This is just another example of this long list of one-size-
fits-none directives coming out of this town that do not take 
into account the unique nature of the states and their ability 
to provide home grown solutions. I am a firm believer that the 
folks closest to the lands ought to have the greatest voice in 
this process.
    Mr. Lyons, after reading Governor Bullock's consistency 
review, and we have a democratic governor so this is very 
bipartisan issue back home and Governor Bullock's plan--he 
listened to input from Montanans. Could you explain why it 
appears that the voices of Montanans were not incorporated into 
the planning process?
    Mr. Lyons. Well Senator, I would suggest that we did try to 
incorporate the views and concerns of the governor and others 
in Montana in developing the plan, and we will continue to do 
so through implementation.
    I'd point out that the checkerboard ownership pattern that 
you described is an important element here. And for that reason 
we sought to build flexibility into the plans with regard to, 
in particular, how oil and gas resources were to be developed 
and reached an agreement with the governor's office in that 
regard. Montana is in a unique situation in that it is 
transitioning to adopting a strategy, known as the courier 
strategy, which is essentially what has been implemented in 
Wyoming.
    So, we're working and we'll continue to work with the 
governor's office as that transition occurs, and I think that 
will provide additional flexibility for the state.
    Senator Daines. Yes, and in that regard, thank you.
    I recognize, and to the credit of our state BLM office, 
they fought hard for clauses in Montana's RMP to ensure that 
flexibility you talked about for the federal plans to be 
reviewed every two years and amended if and when the Montana 
state plan is proven to be ``effective.''
    I think the land users back home in Montana need more 
certainty that the BLM will indeed amend its land use plans to 
reflect the successes of local landowners in our state plan. We 
have been undertaking an active sage grouse conservation effort 
for over ten years. The irony here, of course, as you know, is 
the Montana plan is extremely similar to the Wyoming plan which 
was largely adopted by the BLM in Wyoming and not so in 
Montana.
    So as I understand it, the BLM is undergoing its guidance 
documents to implement these plans. How does the Department 
plan to resolve these differences on federal land within these 
first two years?
    Mr. Lyons. I believe what we'll attempt to do is we'll 
implement the plan as it's written now and as the state 
develops its plan based on the courier strategy, we'll review 
that plan and then amend the existing RMPs accordingly.
    Senator Daines. Specifically, does the Department plan to 
revise its plans in Montana in 2017?
    Mr. Lyons. I think that's a function of when the plans are 
presented by the State of Montana, and it's a function of the 
construction of those plans. So, I can't commit to something I 
haven't seen nor has been delivered. So I think that's why we 
built this transition in recognizing the desire to put in place 
this courier strategy which, I think, would work well for 
Montana.
    Senator Daines. A follow up on that.
    They say that if you aim at nothing, you will hit it, in 
terms of clear objectives and targets.
    Could you define what you mean by ``effective'' and what 
``meeting management objectives'' means so that Montanans have 
a target to work with?
    Mr. Lyons. Well effective means effective in sustaining the 
habitat; And the population of the greater sage grouse so as to 
ensure that it does not warrant listing in the future. I think 
that's the objective across the range. It's actually the 
objective that was created by the Western Association of Fish 
and Wildlife Agencies over a decade ago, and we've consistently 
focused on that as an objective in working with the states.
    Senator Daines. Right.
    I am out of time. Thank you, Mr. Chairman.
    Senator Barrasso. Senator Risch.
    Senator Risch. Thank you very much.
    Ms. Macdonald, let me say you were critical of language 
that is attempting to be passed at Congress that throws a 
bucket of cold water on the federal agencies that are involved 
in this.
    Let me tell you, first of all, you represent, in my 
judgement, one of the most successful conservation 
organizations in America and one that has tremendous respect by 
myself and this Congress, really. And you do it because you 
work from the bottom/up and not the top/down.
    With all due respect to the other gentlemen here, the 
Federal Government is notorious for doing things just the 
opposite. So I come back to the defense of those of us who are 
supportive of attempting to handcuff these guys to a degree in 
dealing with this problem.
    We really think the states are doing a good job. In this 
town, you cannot get people to understand this. The states 
actually can do these things. We actually can manage things. We 
can accomplish things and we do.
    In our defense, we had to do this with wolves. Idaho had 
gotten rid of its wolves for a long, long time. None of us 
wanted wolves back. But the wolf, like the bird, is a 
magnificent animal. We have them now, even though we did not 
want them.
    But we just couldn't. It was like the tar baby. We just 
could not get away from the Federal Government. So we finally 
passed a law and said, Federal Government, you are out of this 
business. We are going to do it, and we are still trying to get 
a handle on it. In Idaho and in a lot of places you can get 
five tags because we have still got to thin what we've got, but 
we have been successful in doing that.
    I would not worry too much about this. I think we are going 
to keep a close angle on this and see that this bird is--gets 
to the point where it has a sustainable future in front of it. 
But we think the states can do it. If those that worship at the 
altar of the Federal Government, they will not like this, but 
we think at the state level we can probably do that.
    But anyway, thank you for your consideration. We will just 
have to respectfully disagree on that particular point, but we 
have the same objective. There is not anybody that wants to see 
anything but the best for this bird.
    Let me say that and just in closing on that. What that 
should represent, and it doesn't always, but what it should 
represent is just a depth of lack of confidence that we, who 
represent states here, have in some of the things that the 
Federal Government tries to do and this is certainly one of 
them.
    To my friends from the Forest Service and the BLM, it 
should be loud and clear that the top/down approach just simply 
is not appreciated. We really think and you have heard other 
people say here that the bottom/up approach will work 
substantially better.
    The other thing that I would stress, and my colleague from 
New Mexico, I think, stressed this, is look, let me tell you 
what this is all about when it comes to the sage grouse. Fire, 
fire and fire.
    The human activities that are being used as an excuse to 
regulate, as was pointed out by Ms. Sweeney, I mean, how 
preposterous it is to throw ten million acres out because one 
percent of it is affected by mining. It is just stunning. It 
lacks common sense, but that is not new to this town.
    Let me ask you, Mr. Lyons, we have not seen the grazing 
instruction memorandum. There was a story leaked from Greenwire 
that says there is such a thing. Can I get my hands on that?
    Mr. Lyons. I'm sure you can, Senator.
    Senator Risch. I would like one, please. If you would get 
it to my office.
    There are rumors that there is going to be a seven-inch 
stubble requirement in every lek. Do you know whether that is 
true or not?
    Mr. Lyons. No, I don't believe there's going to be a seven-
inch stubble requirement in every lek.
    Senator Risch. I think that would cause a lot of people to 
breathe a sigh of relief.
    I don't know, this stubble thing has always amazed me and I 
suspect Brenda and others in the cattle business. This may come 
as a shock but cattle do not like the top part. They like the 
bottom part. Given their choice, they will take one all the way 
down because they have to eat the bad part to get to the good 
part, but unfortunately that is just the way it is. They do not 
do that to every plant, but depending upon how you measure the 
stubble it could be very difficult.
    How about a buffer? We are hearing rumors about a six-mile 
buffer around a lek. Is that true or is that just rumor that we 
are hearing?
    Mr. Lyons. I'm not aware of that.
    Senator Risch. Okay.
    Mr. Lyons. Senator, so but I'll gladly follow up and----
    Senator Risch. I would appreciate that, if you could----
    Mr. Lyons. If there's any truth to that.
    Senator Risch. If you take that for the record.
    I have got in front of me this evening an email, although I 
am sure you wished you had never gotten it, that is dated April 
26th from Chris Iverson. This is probably one of the emails you 
guys would have given to Hillary to guard.
    In any event it has gotten out. Mr. Iverson, in talking 
very candidly about the approach that is being taken, talks 
about the requirements. He says, ``Does anyone suppose that 
any,'' and any is in caps, so I suppose that means it is a 
shout. ``Does anyone suppose that ANY allotment is currently 
meeting those standards?'' Did you respond to that question 
that he asked you in this email or was this kind of a 
rhetorical email that you----
    Mr. Lyons. I think it was a rhetorical question, Senator. 
And since we both have that email, you know, I would point out 
that subsequent to that Chris says that ultimately the range 
cons need to figure out how to meet those guidelines. So I 
would not necessarily agree with Chris that we can assume that 
people can't meet these objectives.
    Stubble height is one element associated with a number of 
objectives for the plans. I want to point out for the record 
that no one variable, no one objective will be the determining 
factor as to whether or not someone is complying with the land 
health standards and further provide that it's not simply a 
matter of meeting those standards, but if an operator could 
demonstrate that their operation is, in fact, moving in that 
direction and we certainly will work with permittees to achieve 
that, then they will meet the standards.
    I think there's been a lot of confusion about stubble 
height and a lot of consternation. For that reason, we've had a 
number of meetings with the cattle industry to try to discuss 
this and correctly characterize it.
    Senator Risch. We appreciate that.
    Mr. Lyons. And we will continue to have those 
conversations.
    I had the good fortune of meeting with Speaker Bedke just a 
few weeks ago to talk about this issue and some ways to try to 
work better together to try to address these concerns.
    Senator Risch. We appreciate that. There are 1,800 grazing 
permittees in Southern Idaho. I do not need to tell you they 
are all very, very nervous right now. I hope, through this 
hearing, both of you will take all of this in the spirit in 
which it is intended. We all want to work together to make a 
sustainable future for this bird, and the criticisms that are 
levied here are done so in the spirit of moving it forward.
    So thank you for what you do. We are going to continue to 
work with you and urge you in a direction that we think will be 
helpful.
    Mr. Chairman, I have got to excuse myself, but thank you so 
much.
    Senator Barrasso. Thank you, Senator Risch.
    Senator Hoeven.
    Senator Hoeven. Thank you, Mr. Chairman.
    My questions are for Deputy Assistant Secretary Lyons as 
well, initially.
    In 2010, Interior looked at starting a process to list the 
sage grouse as endangered. In September of 2015 U.S. Fish and 
Wildlife found that listing the greater sage grouse as an 
endangered species was not necessary. That primarily came as a 
result of the successful conservation efforts at the state and 
local level.
    So my question is in regard to BLM's sage grouse plan. Last 
year North Dakota's Governor outlined six concerns about 
federal plan inconsistencies. He talked about not accounting 
for new well drilling technology for oil well drilling. He 
talked about balancing all the uses. He wanted a case by case 
analysis, and was concerned about BLM imposing net conservation 
gain requirements. He was concerned about the definition of 
``tall structures.'' What does that mean? What is that 
requirement? Then there was a concern about adequate public 
comment.
    The state raised those concerns last year, and then in July 
2015 BLM basically rejected or dismissed the concerns. The 
state appealed, and in September of 2015 North Dakota's appeal 
was turned down by BLM as well.
    So when you talk about extensive state/federal 
collaboration and when we see that those state efforts are 
working, why is it the state was turned down when they came 
with those concerns?
    Mr. Lyons. Well, Senator, the Dakota's plans, along with 
the Montana plan, were really designed to try to address those 
threats where identified.
    I think in some instances, and I can't speak to the 
specifics of that letter of appeal, in some instances, the 
recommendations were not consistent with what was judged to be 
necessary to deal with those threats. And so, the plan moved 
forward.
    I'd be glad to give you a more specific response, Senator, 
to those issues and go back and look at the letter and talk 
with Jamie Connell or the State Director about how that 
response was prepared.
    Senator Hoeven. Well, we work with Jamie and we really like 
her. We think she is great, so I am a little surprised that it 
was turned down.
    What I am really after here is how we create a better 
collaboration in that, again, I think what you are hearing 
pretty consistently up here is that the states can do a good 
job but they need both Interior, just Fish and Wildlife, BLM, 
they need some flexibility here. It cannot be a one-size-fits-
all. Multiple use in North Dakota is different than it is in 
some of the other states. I think all of us have ranching, but 
we also have tremendous energy development. There has got to be 
some flexibility. How do we get a better collaboration? How do 
we improve that collaboration? How do we get better 
flexibility?
    We actually have a remarkably good relationship with Jamie. 
She is great. She is always looking for good ideas. She has 
always tried to help us do the things that we think are 
productive that makes sense, but she has got to be able to get 
that help from here in DC.
    Mr. Lyons. Well, I appreciate that. I think Jamie is an 
outstanding director.
    Senator Hoeven. She is.
    Mr. Lyons. And a leader in BLM.
    I think the answer to this, and if I haven't made this 
clear, I want to emphasize that it is in implementation is how 
we work together at the ground level to implement these plans 
in ways that respond to local needs and provide the flexibility 
necessary to address issues whether it's buffers or as we're 
working now with the states in redrawing the boundaries of 
priority habitat areas that were originally identified which 
we're doing with a number of states.
    I think there are and will continue to be important 
opportunities to work together in a collaborative way on the 
ground to make these plans work and achieve the conservation 
outcomes that we seek to achieve.
    Senator Hoeven. That is exactly what I am asking for. I am 
asking for more flexibility, and I am asking you to empower 
that Regional Director. I think we can do a lot if you do not 
have this mindset that it has got to be the same everywhere 
when it is not the same.
    Mr. Lyons. The goal is not to be the same everywhere, 
Senator. The goal is to provide enough consistency so that 
there's certainty to the conservation outcomes that will be 
provided by the plans, but the flexibility to respond to those 
local needs and conditions.
    Senator Hoeven. That is the key. That is where we need your 
help.
    Mr. Lyons. Glad to help.
    Senator Hoeven. We appreciate your Regional Director and 
her willingness to work with us, and we just need you to 
empower her to do some of these things that were on the ground.
    I wanted to take just a minute to ask Brenda Richards a 
question from a rancher's perspective. Obviously, we think it 
is a great benefit to the country to be able to have ranchers 
out on the grasslands. But if you would just talk in terms of 
the benefits to the public because, I do not think people 
realize it, but there is a big time benefit to taxpayers and 
there are other benefits that our ranchers are creating for 
everybody by being out there in the grasslands and grazing. If 
you could just touch on that for a minute, because I think it 
is important that people understand it.
    Ms. Richards. Thank you, Senator, for that opportunity.
    As I indicated in my testimony in many of these areas 
across the West, Idaho is not unique but ranching and grazing 
has been there for over 100 years which has helped provide the 
healthy habitat, the healthy range lands and the rural 
communities which is something we need to stress. So even if 
those ranches do change hands, many times, it's still into the 
same intricate aspect of the ranching community.
    There is a vested interest in local input. Our local Sage 
Grouse Working Group which was started by the ranchers and then 
brought others in to work is over 20 years old. So it's well 
before all of this came to the very forefront.
    And so, I think, you hit the nail right on the head. We are 
an extremely important and integral part for continuing with 
that because of the vast amount of public, private and state-
owned lands so we all have to work together.
    And the ranchers have a vested interest there. They are the 
businesses, they are the communities and they're long-term, 
generational often to make sure that that stability is there.
    Senator Hoeven. Hasn't your organization actually done some 
studies and determined what the benefit is to taxpayers on an 
annual basis? Do you have any of that information with you?
    Ms. Richards. We have done some, and Owyhee County actually 
has an economic impact statement. We also have an economic 
analysis that shows what it does. I would be glad to provide 
that to the Committee.
    We've also pulled in some data through the National Public 
Lands Council based on the ranching and what the benefits are 
to the states, to the economic and the health of the resource. 
We do have that documentation and study done by the University 
of Wyoming and public lands sponsored it, and we will be glad 
to get that to the Committee.
    Senator Hoeven. Right.
    I think some of those studies have shown on the order of 
$750 million a year in benefit to taxpayers by having ranchers 
out on the ground. So you have got all this really good data 
there, and we appreciate you being here to talk about it.
    Ms. Richards. If I could follow up.
    I would say that alone in Owyhee County we are 7,697 acres. 
We have 1.5 people per acre. Seventy-eight percent federal 
land. But we have put ourselves $318,000 through into local 
working group projects that are successful. So, you're spot on 
with that, and we'd be glad to get that information to you.
    Senator Hoeven. Thanks, and we really appreciate what the 
ranchers are doing out there.
    Ms. Richards. Thank you.
    Senator Hoeven. Thank you, Mr. Chairman.
    Senator Barrasso. Thank you, Senator Hoeven.
    Mr. Lyons, I understand this ten-million-acre withdrawal is 
going to be the largest in FLPMA history, and the Department 
has justified this figure by saying there does not appear to be 
significant mineral development potential.
    Can you talk about whether your science or geological data 
informed that statement and is there a complete geological or 
mineral inventory of the ten-million acres?
    Mr. Lyons. Well actually, Mr. Chairman, I think as you 
understand, you know, we're in the process of developing the 
withdrawal proposal. It's a separate process. So the plan has 
actually recommended the withdrawal, segregation occurred, but 
the process is unfolding.
    So the mineral survey that would look at those particular 
issues is being developed for us by the USGS and is not yet 
completed. But we are and USGS did, in fact, reach out to all 
the states and to other entities to secure information about 
mineral potential and, I think, gather that as a foundation for 
developing the EIS which we hope to complete by the end of this 
year.
    I should also point out that the alternatives for that EIS 
are being developed in collaboration with cooperators. There 
have been several discussions as well as several meetings both 
for the scoping and as well as associated with the withdrawal 
proposal.
    So we will gather that information. We will share that 
information and that will be one of the components that goes 
into determining whether or not or how this withdrawal should 
move forward.
    Senator Barrasso. We are trying to get this all figured 
out, because Ms. Sweeney's organization has expressed concern 
about the withdrawal because BLM has yet to complete a number 
of mineral examinations under the 1994--you are talking how 
many years ago that was, congressional moratorium on, with 
regard to mineral patents. How does the BLM intend to complete, 
it looks like 6,000 mineral examinations triggered by this 
potential withdrawal in the face of such a significant backlog?
    Then Ms. Sweeney, I am going to ask you to weigh in as 
well.
    Mr. Lyons. Well, I can say, Mr. Chairman, that the mineral 
potential report is to be completed shortly by USGS. I can't 
speak to the particulars of the other analyses that you're 
talking about, unfortunately.
    And we'll use that as one of the components that goes into 
preparing the environmental impact statement. That will be a 
part of this process. It is a separate process from the plans.
    Senator Barrasso. Ms. Sweeney, go ahead.
    Ms. Sweeney. I do think that there are significant concerns 
as to whether BLM has the resources to complete that number of 
mineral exams. I believe that between Forest Service and BLM 
there is probably less than 40 mineral examiners that are 
certified and able to do that kind of work.
    And I would say, most of them are probably close to, if not 
of, retirement age. I do think that delaying getting the 
claims--determinations done since 1994. And there's still about 
37 or 38 of those left, I think, that remain. I mean, it does 
raise the issue as to whether or not, that practically speaking 
BLM could even implement the claim validities that would be 
prompted by the withdrawal.
    Senator Barrasso. One of the other things you talked about 
in your testimony, Ms. Sweeney, had to do with how you clearly 
spell out the economic impacts that can result from withdrawing 
ten million acres from mineral production.
    In your view, did the Administration take these economic 
issues, foreign policy implications and national security 
implications into consideration when determining that ten-
million-acre figure?
    Ms. Sweeney. I would say they did not or else they wouldn't 
have moved forward with recommending it. But as Mr. Lyons says, 
it's still is in the preliminary stages.
    And so we're hopeful with that kind of information provided 
to the agencies that they will realize that this withdrawal is 
not necessary to conserve the sage grouse or its habitat.
    Senator Barrasso. Ms. Clarke, in your experience on both 
sides of the table in this discussion, you are currently 
overseeing a number of conservation efforts in Utah.
    In your testimony you contrasted the successful 
conservation efforts on the ground in Utah with the now lack of 
what is happening in Washington. You referred to the mother 
ship.
    I am going to ask Ms. Richards to weigh in on this as well, 
but has your relationship with local land managers, including 
those in BLM and Forest Service on the ground at home, been 
compromised by Washington's top/down mother ship approach to 
local conservation efforts?
    Ms. Clarke. I would say that our forward movement has 
absolutely been compromised. Often we hear from these federal 
partners that they share our frustration. They want to get on 
with business and make things happen. But yes, it's very 
frustrating.
    Senator Barrasso. Ms. Richards, could you comment as well?
    Ms. Richards. Yes, I appreciate that opportunity.
    Both again from our local level and on our state level our 
governor put together a task force. We have a plan that was 
bought off on by the state BLM and local BLM. We were working 
on local working groups, and that has seemed to somewhat grind 
to a halt.
    I'd also like to add that although the question was not 
answered specifically pertaining to a six-mile buffer, for our 
county commissioners we were denied access to a gravel pit by 
the BLM because it was within a four-mile buffer of sage grouse 
pertaining to the documents, the implementation draft documents 
that had been leaked because on the ground is not sure of how 
to move forward. And as we know litigation is huge out there so 
they don't want to take any risks.
    So they're definitely, our local was/is and state has been 
trying to work with it, but we have been, as Kathleen said, 
ground to a halt somewhat by that.
    Senator Barrasso. Yes, because as a rancher in Idaho you 
have seen a number of federal resource management failures 
throughout your career, your time.
    By their own admission the Administration understands that, 
``the primary threats to sage grouse are the widespread present 
and potential impacts of wildfire.'' Senator Risch commented on 
that. ``The loss of our native habitat to invasive species and 
the conifer encroachment.''
    Since the agency has announced the federal conservation 
plans, have you seen any improvement or changes at all in the 
way that they are managing wildfire or invasive species? What 
have you noticed?
    Ms. Richards. In my area in Owyhee County, as was 
indicated, we were impacted tremendously by the Soda fire. So 
there have been a number of dollars that have been put forward 
to fire rehab, but that fire could have been prevented if there 
was flexibility within the plans for some grazing management as 
tools on the front.
    So I'm not sure, and maybe I need you to repeat that. We 
haven't seen anything that's actually come on the ground with 
that, but maybe you could repeat what you're asking.
    Senator Barrasso. I think you answered it in terms of 
whether, there have actually been policy changes once they have 
recognized the impact of what the real causes are and what they 
are trying to do to prevent the real causes opposed to the man-
made relationships.
    Ms. Richards. From what we've seen and the concern in the 
grazing community is again, we have had on a local level, 
because of the draft that was leaked out, we have had some 
conversations that have been very negative about restrictions 
that could be put on grazing which again, is counterproductive 
to the fire component of that, the threat, because grazing is a 
natural use of a renewable resource to reduce fuel loads. It 
will not completely eliminate fire, but it certainly is a tool 
that helps substantially reduce the fuel loads and protect 
those lands in the sage grouse habitat.
    Senator Barrasso. Thank you.
    Mr. Lyons, in your testimony you highlighted the years of 
work that the Administration has undertaken on the issue of 
sage grouse conservation, an extensive period of time. I think 
your point is that the resource management plans and land use 
plan amendments announced last fall were an accumulation of 
years of work. If that is true, then why have we had to wait 
nearly another whole year for agency guidance if you have been 
working on this issue for more than a decade?
    Mr. Lyons. Well Senator, I would suggest to you that the 
reason there's been delays is because we've made the extra 
effort to try to communicate with and coordinate with the 
various interests who might be affected by these plans.
    I would have to say, my father would say, ``You're in a 
damned if you do and damned if you don't situation.'' You know, 
draft IMs were prepared. We began to discuss those with 
cooperators and others and concerns were raised. We then 
elected to go out and engage more directly with various 
interests.
    So I reference the stakeholder meetings we had in April in 
which we used those not only for discussion but as, kind of, 
mini workshops in which we presented the drafts at that point 
in time. And there were additional concerns, and then the 
feedback was extremely helpful.
    We've continued the dialogue through the Sage Grouse Task 
Force with the states and a number of states have been quite 
helpful. Wyoming would be one, for example, with their 
experience in providing additional guidance. So we're trying to 
get it right. We recognize how significant this is.
    We recognize how critical the collaboration is to be 
successful as we move forward and so the delays really, I 
think, reflect due diligence, perhaps maybe an over cautious 
approach to try and ensure that we can continue to move forward 
and implement these policies and procedures in ways that are 
going to be understood, that are going to be effective and will 
be welcomed by the partners who are critical to ensuring that 
we can achieve that.
    If I could make one other point, just about fire?
    You might have sensed that I'm very proud of the work that 
we've done on fire, and I think it's important. And I, you 
know, the Soda fire was unfortunate and I certainly feel for 
Brenda and her family and the impacts that they felt.
    But you know, we're trying to use the Soda fire as a 
mechanism to try new approaches to dealing with restoration, in 
particular. And one of those, in fact, is trying to use grazing 
more effectively as a mechanism to reduce fuel loads. Brenda 
and her family have been very helpful in that regard in trying 
to develop this.
    So we're trying to learn from past mistakes and try to use 
these opportunities, a funny way to characterize the Soda fire, 
but this opportunity to do a more effective job in the 
restoration arena and also do that in a way that's going to 
further reduce the likelihood of fire risk in the future.
    Senator Barrasso. For your first answer let me just say 
that for your efforts with regard to coordination of efforts, I 
would appreciate if you do just not the states alone, but also 
the stakeholders. I think it is critically important to this.
    Now I want to thank all the witnesses for being here, for 
your time and for your testimony. It is clear that serious 
concerns remain. They remain about the future of public land 
access as a result of the federal sage grouse plans. At best, 
federal sage grouse plans were created to justify keeping the 
species off the Endangered Species list but at worst the plans 
really are a part of a larger campaign to restrict access to 
public land.
    It has been suggested that the agencies will use the 
Greater Sage Grouse Conservation Plan process as a model for 
future conservation efforts. This nine-month delay in 
implementation of the plan is not acceptable now, and it will 
not be acceptable in the future.
    If there are no further questions from members, they may 
submit written questions to you so the hearing record will be 
open for the next two weeks.
    Senator Barrasso. Given that, the hearing is adjourned. 
Thank you very much.
    [Whereupon, at 4:21 p.m. the hearing was adjourned.]




                      APPENDIX MATERIAL SUBMITTED

                              ----------                              


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






                       [all]
                       
                       
                       
</pre></body></html>
